Case #
IN THE SUPREME COURT OF THE UNITED STATES
LARRY WILKERSON,
Petitioner;
v.
UNITED STATES OF AMERICA,
Respondent

:
:
:
:
:
:
:
:
:

On Petition for Writ of Certiorari to the
United States Court of Appeals for the District of Columbia
MOTION TO PROCEED IN FORMA PAUPERIS
Sebastian K.D. Graber, Esq.
904 Sedgefield Street
Durham, NC 27705
skdgesq@gmail.com
540-226-9987
Counsel of Record

Petitioner, Larry Wilkerson, through undersigned counsel, moves this Court, pursuant to
Rule 39 of the Rules of the Supreme Court of the United States, to proceed in forma pauperis. In
support of this motion, counsel submits that on May 7, 2010, counsel was appointed to represent
petitioner in the United States Court of Appeals for the District of Columbia pursuant to the
Criminal Justice Act, 18 U.S.C. § 3006A et seq., as well as 18 U.S.C. § 3599 and 18 U.S.C. §
3005. A copy of counsel’s appointment order is attached. Petitioner also was allowed to proceed
in forma pauperis in the United States District Court for the District of Columbia and was
appointed counsel in that court pursuant to 18 U.S.C. § 3599 and 18 U.S.C. § 3006A.
The petitioner is incarcerated and his in forma pauperis status remains the same.
Respectfully submitted,

/s/
Sebastian K.D. Graber, Esq.
904 Sedgefield Street
Durham, N.C. 27705
(540) 226-9987
skdgesq@gmail.com
Counsel for Petitioner Larry Wilkerson
Appointed by the U.S. Court of Appeals
For the D.C. Circuit

1

CERTIFICATE OF SERVICE
I hereby certify that on this 5th day of March, 2021, a true copy of Petitioner Larry
Wilkerson’s Motion to Proceed In Forma Pauperis was mailed, along with the Petition for a Writ
of Certiorari, postage prepaid, through first class mail or priority mail by the United States Postal
Service, to Ms. Elizabeth Prelogar, Acting Solicitor General of the United States, Office of the
Solicitor General, U.S. Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530.
Respectfully submitted,

/s/
Sebastian K.D. Graber, Esq.
904 Sedgefield Street
Durham, NC 27705
540-226-9987
skdgesq@gmail.com
Counsel for Appellant
Appointed by the D.C. Circuit

2

CJA 30 DEATH PENALTY PROCEEDINGS:

APPOINTMENT OF AND AUTHORITY TO PAY COURT APPOINTED COUNSEL

1. CIR./DIST./DIV. CODE
2. PERSON REPRESENTED
DCC
Wilkerson, Larry
3. MAG. DKT./DEF. NUMBER
4. DIST. DKT./DEF. NUMBER

VOUCHER NUMBER
5. APPEALS DKT./DEF. NUMBER

1:00-000157-015
7. IN CASE/MATTER OF (Case Name)

8. TYPE PERSON REPRESENTED

U.S. v. Larry Wilkerson

12. COURT ORDER
Xj O Appointing Counsel
D F Subs For Federal Defender
D P Subs For Panel Attornev

Graber, Sebastian K. D.
P. O. Box 189
Wolftown VA 22748

(540)

Federal Capital Prosecution

If more than one offense, list (up to five) major offenses charged, according to severity of offense.

11. ATTORNEY'S NAME (First Name, M.I., Last Name,
including any suffix) AND MAILING ADDRESS

Te,ephone Number:

9. REPRESENTATION TYPE

Appellant

10. OFFENSE(S) CHARGED (Cite U.S. Code, Title & Section)

6. OTHER DKT. NUMBER

X: 10-003037-

D C Co-Counsel
D R Subs For Retained Attorney
D Y Standby Counsel

Prior Attorney's Name:
Appointment Date:
(A) Because the above-named person represented has testified under oath or has otherwise satisfied this
court that he or she (1) is financially unable to employ counsel and (2) does not wish to waive counsel, and
because the interests of justice so require, the attorney whose name appears in Item 11, who has been
determined to possess the specific qualifications required by law, is appointed to represent this person in
this case.

948-5503

(B) The attorney named in Item 11 is appointed to serve as: QLEAD COUNSEL

Q CO-COUNSEL

Name of Co-Counsel or Lead Counsel:
Appointment Date:

13. NAME AND MAILING ADDRESS OF LAW FIRM(only
provide per instructions)

(C) If you represented the defendant or petitioner in any prior proceeding related to this matter, attach to
your initial claim a l i s t i n g of those proceedings and describe your role in each (e.g., lead counsel or cocounsel).
D (D) Due to the expected length of this case, and the anticipated hardship on counsel in undertaking
representation full-time for such a period without compensation, interim payments of compensation and
expenses are approved p u r s u a n t to the attached ord
Signature of Presiding Judicial Officer or By Order of the Court
05/07/2010
Date of Order
Nunc Pro Tune Date
(E) Repayment or partial repayment ordered from the person represented for this service at time of
appointment.
DYES
D NO

CLAIM FOR SERVICES AND EXPENSES
14. STAGE OF PROCEEDING
Check the box which corresponds to the stage of the proceeding during which the work claimed at Item 15 was performed even if the work is intended to be used in connection with
a later stage of the proceeding. CHECK NO MORE THAN ONE BOX.
Submit a separate voucher for each stage of the proceeding.

CAPITAL PROSECUTION
Pre-Trial
a. D
D

b. a
c. a
d. n

Trial
Sentencing
Other Post Trial

HABEAS CORPUS
Appeal
Petition for the U.S.
Supreme Court
Writ of Certiorari

r n

g.

D

h. Q
i. D
j, Q

Habeas Petition
Evidentiary Hearing
Dispositive Motions
Appeal

k.

OTHER PROCEEDING
Petition for the U.S.
Supreme Court
Writ of Certiorari

1. U
m. D
n. D
o. D

Stay of Execution
Appeal of Denial of Stay
Petition for Writ of Certiorari to the U.S.
Supreme Court Regarding Denial of Stay
Other

HOURS AND COMPENSATION CLAIMED

FOR COURT USE ONLY
MATH/TECH
ADJUSTED
AMOUNT

ADDITIONAL
REVIEW

IN COURT
TOTAL

IN COURT
TOTAL

OUT OF COURT
TOTAL

OUT OF COURT
TOTAL
(Categories b - j)

CATEGORIES
(Attach itemization of services with dates)
a. In-Court Hearings (Rate per Hour = S

(Category a)

b. Interviews and Conferences with Client

(Category a)

c. Witness Interviews
d. Consultation with Investigators and Experts

e. Obtaining and Reviewing the Court Record
f. Obtaining and Reviewing Documents and Evidence

(Categories b - j)

g. Consulting with Expert Counsel
h. Legal Reserach and Writing
i. Travel
j. Other (Specify on additional sheets)
Totals: Categories b thru j (Rate per hour - $

-

CLAIM FOR TRAVEL AND EXPENSES (Attach itemizotion of expenses with dates)
16.

Travel Expenses (lodging, parking, meals, mileage, etc.)
Other Expenses (other than expert, transcripts, etc.)

GRAND TOTALS (CLAIMED AND ADJUSTED):
18. CERTIFICATION OF ATTORNEY/PAYEE FOR THE PERIOD OF SERVICE
FROM
TO
21. CLAIM STATUS

D Final Payment

D Interim Payment Number

Have you previously applied to the court for compensation and/or remimbursement for this case?

19. APPOINTMENT TERMINATION DATE IF
OTHER THAN CASE COMPLETION

DYES

D Supplemental Payment

LJ NO

If yes, were you paid?

20. CASE DISPOSITION

DYES

CD NO

Other than from the court, have you, or to your knowledge has anyone else, received payment (compensation or anything or value) from any other source in connection with this
representation?
DYES
D NO If yes, give details on additional sheets.

I swear or affirm the truth or correctness of the above statements.
Signature of Attorney:

22. IN COURT COMP.

Date:

